                                                              Issue Date
                                                                    June 21, 2012
                                                              Audit Report Number
                                                                    2012-PH-1009




TO:        Nadab O. Bynum, Director, Office of Community Planning and Development,
            Philadelphia Regional Office, 3AD

           //signed//
FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA

SUBJECT:   The City of Philadelphia, PA, Generally Administered Its Neighborhood
           Stabilization Program 2 Grant in Accordance With Applicable Requirements


                                 HIGHLIGHTS

 What We Audited and Why

           We audited the City of Philadelphia, PA’s administration of its Neighborhood
           Stabilization Program 2 grant that it received under the American Recovery and
           Reinvestment Act of 2009 as part of our fiscal year 2012 audit plan. Our
           objective was to determine whether the grantee administered the grant in
           accordance with Recovery Act and U.S. Department of Housing and Urban
           Development (HUD) requirements.

 What We Found

           The grantee generally administered its grant in accordance with Recovery Act and
           HUD requirements. However, the grantee and its grant subrecipient, the
           Philadelphia Redevelopment Authority, did not have a HUD-approved cost
           allocation plan as required by Federal regulations.
What We Recommend


           We recommend that HUD require the grantee and its subrecipient to develop a
           cost allocation plan which provides an equitable method for distributing
           administrative costs to the benefiting programs and obtain HUD approval for the
           plan.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response

           We provided a draft audit report to the grantee and HUD officials on May 18,
           2012. We discussed the audit results with the grantee, its subrecipient and HUD
           officials during the audit and at an exit conference on June 7, 2012. The grantee
           provided written comments to our draft report on June 12, 2012. It generally
           agreed with the audit report. The complete text of the grantee’s response, along
           with our evaluation of that response, can be found in appendix A of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                       4

Results of Audit
      Finding: The Grantee Generally Administered Neighborhood Stabilization   6
      Program 2 Funds in Accordance With Applicable Requirements

Scope and Methodology                                                          10

Internal Controls                                                              13

Appendix
   A. Auditee Comments and OIG’s Evaluation                                    15




                                           3
                          BACKGROUND AND OBJECTIVE

The Neighborhood Stabilization Program 2 was established by Title XII of Division A of the
American Recovery and Reinvestment Act of 2009 to stabilize neighborhoods, the viability of
which has been and continues to be damaged by the economic effects of properties that have
been foreclosed upon and abandoned. The Recovery Act provided grants to States, local
governments, nonprofits, and a consortium of public or private nonprofit entities or both on a
competitive basis. The U.S. Department of Housing and Urban Development (HUD) awarded a
combined total of $1.93 billion in Program grants to 56 grantees nationwide.

The Program is a component of the Community Development Block Grant (CDBG) program,
and basic CDBG requirements govern it. HUD’s notice of funding availability1 outlines
additional requirements, including requirements that grant recipients (1) expend 50 percent of
their Program funds 2 years from the date of the grant agreement or by February 11, 2012, (2)
expend 100 percent of their Program funds 3 years from the date of the agreement or by
February 11, 2013, (3) submit quarterly reports using the Disaster Recovery Grant Reporting
system to report quarterly achievements, (4) comply with 24 CFR (Code of Federal Regulations)
Part 85 for State and local governments and 24 CFR Part 84 for nonprofit entities regarding
procurement practices, and (5) comply with 24 CFR Part 58 for environmental reviews and
requests for release of funds. In addition, the notice of funding availability for NSP2 under the
Recovery Act required that not less than 25 percent of the funds be used to benefit individuals or
families whose incomes did not exceed 50 percent of area median income.

The City of Philadelphia is a municipal corporation under the laws of the Commonwealth of
Pennsylvania. It was awarded approximately $43.9 million in Program funding on February 11,
2010. Its Office of Housing and Community Development administers its Program through
grant subrecipients. The Philadelphia Redevelopment Authority is a subrecipient. 2 The
Redevelopment Authority was originally established in 1945 under the Pennsylvania State
Charter Urban Redevelopment Law. The law granted the Redevelopment Authority powers of
condemnation and the ability to buy and sell property and undertake programs for voluntary
repair, rehabilitation, and conservation.

The grantee, as part of its grant agreement, allocated its Program funding as shown below. The
activities focused on (1) the purchase, renovation, and resale of properties; (2) gap financing for
multifamily properties; (3) gap financing for the redevelopment of properties; (4) demolition; (5)
loan loss reserves; and (6) administrative costs.



1
  Notice of funding availability for the Neighborhood Stabilization Program 2 under the Recovery Act, Docket No.
FR-5321-N-01
2
  The grantee also assigned the administration of some of its Program funds to the City of Philadelphia Department
of Licenses and Inspections for the demolition of blighted structures as allowed by the Recovery Act and approved
by the Philadelphia City Council.


                                                         4
                                                                          Projected number
        Activity            Responsible entity        Program funds
                                                                               of units
  Purchase, renovate,    Grantee- Redevelopment
                                                      $ 8,875,000                105
        resale                  Authority
    Gap financing,       Grantee- Redevelopment
                                                       14,673,279                 73
      multifamily               Authority
    Gap financing,       Grantee- Redevelopment
                                                       12,000,000                 85
    redevelopment               Authority
                          Grantee- Philadelphia
      Demolition         Department of Licenses          4,000,000          Not applicable
                             and Inspections
                         Grantee- Redevelopment
  Administrative costs                                   4,394,253          Not applicable
                                Authority
         Totals                                       $43,942,532                263

Our objective was to determine whether the grantee administered its grant funds according to
Recovery Act and HUD requirements. We focused our review on the purchase, renovation, and
resale of properties because the grantee had drawn down a majority of the funds in these areas
when we selected audit samples at the beginning of the review.




                                               5
                               RESULTS OF AUDIT

Finding: The Grantee Generally Administered Neighborhood
Stabilization Program 2 Funds in Accordance With Applicable
Requirements
The grantee expended its grant funds in accordance with the terms of its grant agreement and
made eligible and adequately supported drawdowns. Also, the grantee’s subrecipient qualified
developers in accordance with requirements; developer contracts complied with requirements;
and the subrecipient completed property appraisals, marketing plans, and rehabilitation as
required. However, the grantee and its subrecipient did not have a HUD-approved cost
allocation plan for indirect costs as required by Federal regulations.



 The Grantee Expended Grant
 Funds in Accordance With Its
 Grant Agreement


              The grantee met several specific requirements in the grant agreement, including
              but not limited to expenditure timelines and allocations and provisions related to
              property rehabilitation and home buyer eligibility. According to the grant
              agreement, 50 percent of the grant funds were to be expended by February 11,
              2012. As of February 11, 2012, the grantee had expended approximately $24.7
              million, which was 56 percent of the total funds it received. As of October 2011
              when we began audit testing, the grantee, through its subrecipient, had expended
              approximately $8 million for the purchase and redevelopment of abandoned or
              foreclosed-upon single-family homes and was on track to spend its grant funds in
              accordance with a grant provision which required that about $11 million of the
              grant funds be used for the purchase and redevelopment of abandoned or
              foreclosed-upon homes or residential properties.

              The grant agreement also required the grantee to return a minimum of 100
              abandoned or foreclosed-upon homes to productive use or otherwise eliminate or
              mitigate the negative effects on the stability of the target area. We reviewed a
              nonstatistical sample of 8 of 40 foreclosed-upon single-family properties, which
              the subrecipient stated were in some stage of acquisition and rehabilitation, and
              verified that they had been foreclosed upon and were within the targeted census
              tracts. The notice of funding availability required that Program funds benefit
              persons whose income did not exceed 120 percent of the area median income.
              Four of the eight properties in our review sample had been sold. We reviewed the


                                               6
                 buyer files and determined that each home was sold to a buyer whose estimated
                 annual income did not exceed 120 percent of the area median income, thereby
                 meeting income eligibility requirements. 3

    The Grantee’s Drawdowns
    Were Eligible and Supported


                 As of October 2011, the grantee had made 23 drawdowns in support of
                 expenditures totaling $8 million for Program activities administered by the
                 subrecipient. We reviewed a nonstatistical sample of three of the drawdowns
                 valued at $1.8 million to determine whether the drawdowns were supported. We
                 also reviewed a nonstatistical sample of nine large and medium expenditures
                 totaling $1 million associated with the three drawdowns. We reviewed invoices
                 associated with the nine expenditure amounts to determine whether the payments
                 were accurate and allowable according to HUD and Recovery Act requirements.
                 The $1 million was supported and used to pay for eligible expenses including
                 acquisition, construction or rehabilitation, marketing, and sales costs of homes
                 that were sold in accordance with HUD eligibility requirements. Section VIII,
                 B.1 of HUD’s Sample NSP Single-Family Development and Sales Program
                 manual requires a 10 percent retainage from each payment request and that
                 invoices or other documentation from subcontractors be submitted for soft costs.
                 Each payment request in our sample included a 10 percent retainage as well as
                 supporting documentation for soft costs.

    The Subrecipient Qualified
    Developers in Accordance With
    Requirements


                 The subrecipient met HUD procurement requirements and had adequate
                 procedures in place for qualifying its developers as required by the grant
                 agreement. Regulations at 24 CFR 85.36 require that requests for proposals be
                 publicized, identify all evaluation criteria, and be solicited from an adequate
                 number of qualified sources. The subrecipient’s Request for Qualifications also
                 states that bid packages submitted by developers must contain: a letter of
                 authority, developer description, development team capacity, list of completed,
                 planned and under construction projects, evidence of financial position,
                 references, certificate of non-indebtedness, and a conflict of interest statement.
                 The subrecipient’s publicly solicited request for qualifications contained bid
                 package requirements and identified all evaluation factors. The subrecipient

3
 The subrecipient made a minor technical error, resulting in the overstatement of one home buyer’s estimated
annual income. The error did not materially affect the estimate as a percentage of area median income or the home
buyer’s eligibility. We presented this issue to the subrecipient, and it agreed with the minor finding.


                                                        7
            issued two rounds of requests for qualifications and qualified 50 developers in
            total. As of March 2012, the subrecipient reported that 17 qualified developers
            were actively participating in the program. We reviewed eight developer files
            associated with the sample of nine expenditures discussed above. All of the files
            were submitted with the required documents and were reviewed and approved by
            the subrecipient.

Developer Contracts Complied
With Requirements


            According to the HUD Program manual, developers can designate contractors and
            approve their work proposals without competitive bids. Developers must provide
            cost estimates including builder overhead and profit, which will be reviewed by
            the grantee for cost reasonableness and then approved. Once approved, the cost
            proposal becomes the basis for approving cost reimbursement for work completed
            and the amount of draw requests. We reviewed nine developer contracts
            associated with our sample of nine expenditures to determine whether the terms of
            each contract met HUD requirements. The contracts contained adequate
            provisions and statements of work, which detailed the work to be performed and
            met the intent and requirements of the Recovery Act and HUD regulations. Each
            contract included an appropriate scope of work, cost estimates including builder
            overhead and profit, and evidence that the grantee had approved the cost estimates
            for reasonableness.

The Subrecipient Completed
Property Appraisals,
Rehabilitation, and Marketing
Plans as Required

            The subrecipient completed appraisals, rehabilitation or construction, and
            marketing plans for Program-funded properties or units in accordance with
            section 2301(d)4 of the Housing and Economic Recovery Act of 2008 and its
            policy and procedures manual. The Act states that any purchase of a foreclosed-
            upon home or residential property must be acquired at a discount from the current
            market appraised value and rehabilitated to the extent necessary to comply with
            applicable laws, codes, and habitability requirements and that the sale price must
            be in an amount equal to or less than the acquisition cost plus rehabilitation cost.
            The subrecipient’s policy and procedures manual requires that an appraisal be
            performed for compliance with the Program discount requirement and developers
            complete rehabilitation in accordance with subrecipients’ requirements and
            submit marketing plans. We reviewed 8 of 40 single-family properties and
            determined that each was a foreclosed-upon property in a census tract that was
            targeted in the grantee’s grant application. The appraisals were conducted as


                                              8
           required, and acquisition prices were in accordance with Program requirements.
           We also reviewed marketing plans for the eight single-family properties and
           determined that they were prepared and executed as required and in accordance
           with the related developer agreements. In addition, we conducted onsite
           observations of 27 units that were rehabilitated or under construction and
           determined that they were at a stage of completion consistent with the
           subrecipient’s reporting.

The Grantee Did Not Have a
HUD-Approved Cost Allocation
Plan

           The grantee and its subrecipient did not have a HUD-approved cost allocation
           plan for indirect costs as required by regulations at 2 CFR 225, Appendix E,
           Section D. The regulations require a cost allocation plan when an accumulation
           of indirect costs will ultimately result in charges to a Federal award. The
           subrecipient stated that it allocated indirect costs based on the ratio of direct
           salary costs by program to total salary costs. However, this process did not
           address allocations for salaries of administrative staff, such as executive director,
           deputy director, receptionists, executive secretary, etc., and certain other
           administrative costs. The condition existed because the grantee and the
           subrecipient considered the allocation process sufficient. However, the process
           did not ensure that all activities which benefited from the governmental unit’s
           indirect costs would receive an appropriate allocation of indirect costs as required.
           The subrecipient’s finance director acknowledged that the subrecipient should use
           a more equitable method for distributing administrative costs to the benefiting
           programs. To comply with Federal requirements, the grantee and its subrecipient
           should develop a cost allocation plan which provides an equitable method for
           distributing administrative costs to the benefiting programs and obtain HUD
           approval for the plan.

  Recommendation

           We recommend that the Director of HUD’s Philadelphia Office of Community
           Planning and Development require the grantee to

           1A.    Develop and submit to HUD for approval a cost allocation plan which
                  provides an equitable method for distributing administrative costs to the
                  benefiting programs.




                                             9
                         SCOPE AND METHODOLOGY

We performed our onsite audit work between October 2011 and March 2012 at the offices of the
grantee’s Office of Housing and Community Development and the Philadelphia Redevelopment
Authority, both of which are located at 1234 Market Street, Philadelphia, PA. Our review
covered the period January 1, 2010, through September 30, 2011, but was expanded as necessary
to achieve our audit objective.

During the audit, we assessed the reliability of relevant computer-processed data by comparing
the data to hardcopy information during the performance of the various review steps. We found
the computer-processed data sufficiently reliable to meet our audit objectives.

To accomplish our audit objectives, we reviewed the following:

   •   Applicable laws, regulations, the Program notice of funding availability, and related
       HUD documents.

   •   Applicable sections of the Code of Federal Regulations, HUD guidance, and other
       directives that govern the Program.

   •   The grantee’s approved Program application, budgets, agreement between the grantee
       and the subrecipient, subrecipient agreements with developers, and developer agreements
       with general contractors.

   •   Policies and procedures related to the grantee’s and the subrecipient’s expenditures,
       disbursements, procurements, monitoring plan, and Line of Credit Control System draw
       requests; the subrecipient’s disbursements register; the organizational charts for the
       grantee and subrecipient; and prior HUD Office of Inspector General (OIG) audits.

   •   Program appraisal and monitoring requirements.

   •   HUD’s monitoring reports for the grantee.

   •   The grantee’s fiscal years 2009 and 2010 audited financial statements, fiscal year 2010
       schedule of expenditures of Federal awards, and internal monitoring report for the period
       July 1, 2010, through June 30, 2011.

   •   Information obtained from public records including Accurint data retrieval tools.

Additionally, we conducted interviews with the grantee’s employees, its subrecipient’s employees,
and HUD officials.




                                                10
We also performed the following:

We selected a nonstatistical sample of 3 grant drawdowns totaling approximately $1.8 million
from 23 drawdowns valued at about $8 million as reported in HUD’s Line of Credit Control
System as of October 11, 2011. Our sample represented the range of dollar amounts expended
during the audit period. We reviewed the drawdowns to determine whether they were supported.
We further selected a nonstatistical sample of nine large and medium expenditures totaling
approximately $1 million from the three drawdowns. The sample represented the subrecipient’s
range of expenditure amounts that the developers used during the audit period. We reviewed
invoices associated with the nine expenditure to determine whether the payments were accurate,
allowable, or eligible.

We reviewed 8 of 40 foreclosed-upon single-family properties that the subrecipient stated were in
some stage of acquisition and rehabilitation as of October 24, 2011. The eight properties were
rehabilitated during the audit period and were associated with the sample of nine expenditures
discussed above. Four of the eight properties were sold to income eligible homebuyers. We
reviewed property appraisals for the eight properties to determine whether the appraisals were
conducted as required and ensure that acquisition prices were in accordance with the notice of
funding availability4 for the Program and the grant agreement. We also reviewed marketing plans
for each of the properties to determine whether they were prepared and executed as required and in
accordance with the related developer agreements.

The subrecipient provided an updated listing of 46 single-family units that were in some stage of
acquisition or rehabilitation as of November 23, 2011. It identified 35 of the units as completed or
under rehabilitation and stated that the remaining 11 units were at a zero percent completion level.
The subrecipient also identified 101 units within 6 multi-unit developments that were in some
stage of acquisition or rehabilitation. We nonstatistically selected a sample of 8 single-family units
and 19 multifamily units for site visits. The 27 sample units were representative of units that were
at a 50 percent or greater completion level. We visited the units and performed onsite observations
to verify that they were at a stage of completion consistent with the subrecipient’s reporting.

We reviewed eight developer files associated with the sample of nine expenditures discussed above
to determine whether each developer submitted the documents required by the subrecipient’s
request for proposal and whether the documents were reviewed and approved by the subrecipient.
We also reviewed nine developer contracts associated with the nine expenditures to determine
whether the contracts between the developers and contractors contained required provisions and
statements of work which adequately showed that the work to be performed met the intent of the
Recovery Act and HUD requirements.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


4
    See footnote 1.


                                                  11
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

               •      Policies and procedures that were implemented to reasonably ensure that the
                      grantee’s grant administration, appraisal reviews, monitoring, financial
                      management, and procurement activities were conducted in accordance with
                      Recovery Act and HUD requirements.

              We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


 Significant Deficiency

               Based on our review, we identified a minor internal control deficiency in that the
               grantee and its subrecipient did not have a HUD-approved cost allocation plan.
               The grantee’s and subrecipient’s cost allocation process did not ensure that all


                                                 13
           activities which benefited from the governmental unit’s indirect costs would
           receive an appropriate allocation of indirect costs as required.

           We evaluated internal controls related to the audit objective in accordance with
           generally accepted government auditing standards. Our evaluation of internal
           controls was not designed to provide assurance on the effectiveness of the internal
           control structure as a whole. Accordingly, we do not express an opinion on the
           effectiveness of the grantee’s internal control.

Separate Communication of
Minor Deficiencies

           Minor internal control and compliance issues were reported to the auditee in a
           separate memorandum dated May 17, 2012.




                                            14
                   APPENDIX


Appendix A

     AUDITEE COMMENTS AND OIG’S EVALUATION




                      15
Comment 1




            16
                                  OIG Evaluation of Auditee Comments

Comment 1          Federal regulations at 2 CFR 225 5, Appendix E, require a cost allocation proposal
                   or plan in order for indirect costs to be reimbursed under a Federal award. Also,
                   primary fund recipients are responsible for negotiating and/or monitoring
                   subrecipients’ plans. The audit disclosed that the grant subrecipient’s process for
                   allocating indirect Program costs did not properly account for administrative staff
                   salaries and other administrative costs. As the grantee, the City was responsible
                   for negotiating and monitoring an indirect cost allocation plan for its subrecipient.
                   The City was also responsible for obtaining HUD approval of the plan according
                   to the regulations. HUD Program officials confirmed that the City needs to
                   submit an indirect cost allocation plan.

                   We are pleased that the City plans to work with its subrecipient to develop and
                   submit a cost allocation plan to HUD for review and approval.




5
    The City referred to OMB A-87 in its response; however, OMB A-87 was relocated to 2 CFR 225 in August 2005.


                                                       17
